<html>
<title> - ON THE EVE OF THE SUMMIT: OPTIONS FOR U.S. DIPLOMACY ON NORTH KOREA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                       ON THE EVE OF THE SUMMIT:
               OPTIONS FOR U.S. DIPLOMACY ON NORTH KOREA

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON ASIA AND
                    THE PACIFIC AND NONPROLIFERATION

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2019

                               __________

                            Serial No. 116-6

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-364PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3e594e517e5d4b4d4a565b524e105d515310">[email&#160;protected]</a>                                      
                       
                  
                     
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director

               Brendan Shieds, Republican Staff Director
               
                                 ------                                

         Subcommittee on Asia, the Pacific and Nonproliferation

                         BRAD SHERMAN, Chairman

DINA TITUS, Nevada                   TED YOHO, Florida, Ranking Member
CHRISSY HOULAHAN, Pennsylvania	     SCOTT PERRY, Pennsylvania
GERALD CONNOLLY, Virgina	     ANN WAGNER, Missouri
AMI BERA, California		     BRIAN MAST, Florida
ANDY LEVIN, Michigan		     JOHN CURTIS, Utah
ABIGAIL SPANBERGER, Virginia                                   

                     Don MacDonald, Staff Director
                     
                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Richardson, Honorable Bill, Former Governor of New Mexico, U.S. 
  Ambassador to the United Nations, Secretary of Energy, and 
  Member of Congress.............................................    10
Cha, Dr. Victor, Senior Adviser and Korea Chair, Center for 
  Strategic and International Studies............................    16

                                APPENDIX

Hearing Notice...................................................    47
Hearing Minutes..................................................    48
Hearing Attendance...............................................    49

 
  ON THE EVE OF THE SUMMIT: OPTIONS FOR U.S. DIPLOMACY ON NORTH KOREA

                       Tuesday, February 26, 2019

                           House of Representatives
            Subcommittee on Asia, the Pacific, and 
                                   Nonproliferation
                       Committee on Foreign Affairs
                                                     Washington, DC

    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
Room 2172 Rayburn House Office Building, Hon. Brad Sherman, 
(chairman of the subcommittee) presiding.
    Chairman Sherman. The consensus here seems to be that we 
can start. I know that Ranking Member Yoho will be watching 
this on video and on his--yes, on the way, and I am confident 
that my opening statement will take longer than it takes him to 
get here.
    I want to welcome all of our colleagues to this first 
subcommittee meeting of the congressional session for the 
Subcommittee on Asia, the Pacific, and Nonproliferation.
    We could not ask for a more timely hearing with the 
president in Vietnam and Kim Jong-Un having just arrived there 
by train.
    We could not ask for a more distinguished panel, including 
Governor Bill Richardson, who is famous for negotiating, and 
negotiating successfully, with North Korea, as well as Victor 
Cha, who has negotiated with the North as well.
    I and the ranking member will give opening statements for 5 
minutes and then whichever subcommittee members wish to make an 
opening statement will be allocated 2 minutes.
    Whether we are safer now than we were in June 2018 when the 
Singapore Summit was held and what can be done in Hanoi that 
will make us safer, these are the two questions that we ought 
to address.
    In the first year of his presidency, President Trump 
ratcheted up the rhetoric to an extreme level--``little rocket 
man,'' et cetera. This rhetoric was matched by the North Korean 
rhetoric and there were some that worried that it could lead to 
a kinetic war.
    Trump stopped the extreme rhetoric. Now things are calmer--
that dialing things up and then dialing them back is hardly a 
great accomplishment. The facts are these. When Trump took 
over, North Korea had yet to demonstrate a hydrogen bomb.
    Now they have. During the Trump presidency, 20--the North 
has created enough fissile material for perhaps 20 additional 
bombs, perhaps eight additional bombs worth of fissile material 
created just since the Singapore Summit.
    I am not sure we are safer. Now, we have had a period 
without testing. But that is hardly unusual. The North 
conducted no nuclear tests from 1994 to 2002 and from 2007 to 
2013 they suspended their missile testing from 2009 to 2013. So 
a pause in testing of merely a year is not unusual.
    What is unusual is this. In the past, pauses in testing may 
have slowed down their program. Whereas now Kim Jong-Un said 
last April he does not need any additional tests. He has 
already developed his hydrogen weapon and his ICBM.
    Several hostages have been released by North Korea. But we 
have with us a witness who was able to secure the release of a 
like number of hostages without making concessions to the North 
Korean government and the remains of several service members 
have been turned over to the United States.
    But, once again, we have a witness here who did that 
without making any concessions. Perhaps you should write a book 
called ``The Art of the Deal.''
    But, more importantly, much larger numbers of the remains 
of our servicemen were turned over to us during the Clinton and 
Bush Administrations.
    We have made enormous concessions to North Korea. First, 
Kim has stood on the same level as the most powerful man in the 
world. Second, we have weakened our sanctions in two ways. 
First, the very act of the summit signals to businesses around 
the world that they can do business with North Korea.
    And second, we have not sanctioned major Chinese banks. Mr. 
Yoho and I, with him as chairman, both in 2017 and again in 
2018, of this subcommittee sent letters to the administration 
demanding that the major Chinese banks be sanctioned, not just 
the tiny ones, and we have received no substantive response.
    There has been substantial leakage in our sanctions and the 
change in atmosphere caused by the summit is a major reason for 
that. We have weakened the U.S.-South Korea military defense 
capacity. During the Obama Administration, we had three to four 
major exercises per year.
    We have had zero major exercises with South Korea since 
Singapore and the one--there is one that is scheduled for the 
future that may or may not happen. In any case, it has been 
scaled down.
    As General Abrams, the commander of U.S. forces in Korea, 
stated, ``this suspension has led to a denigration of the 
readiness of our force. So we have made massive concessions 
while getting nothing in return that makes us safer. Nothing."
    I believe--and I see I have gone into overtime a bit here 
so I will be as quick as possible--I believe we need tougher 
sanctions, starting with those two big Chinese--the two letters 
that we sent focusing on several Chinese banks--large Chinese 
banks. That would send a signal that it is not business as 
usual or even business under the table with North Korea.
    Second, and I realize this is somewhat controversial, we 
ought to define down our definition of success. I do not think 
we are going to get CIVD--complete irrevocable verifiable 
disarmament--of all nuclear weapons.
    But we would be much safer if North Korea had a limited 
number of nuclear weapons that were highly monitored. If we 
were in that circumstance, North Korea would not be in a 
position to sell fissile material or nuclear weapons.
    We would limit the amount of damage that they could do and 
we could move ourselves to a safer position that we have now. 
That is certainly much better than seeing new fissile material 
created every day, even while the summit is ongoing.
    With that, I yield to the ranking member.
    Mr. Yoho. I appreciate it and I thank you.
    Governor Richardson, good seeing you. Dr. Cha, good seeing 
you again. I had the good fortune of having breakfast with Dr. 
Chung-in Moon this morning, who is the advisor of Moon Jae-in, 
and his take was a little different.
    He thought things were moving along very well and he was 
very impressed with President Trump and what he is doing.
    But let me go to my notes. Good morning, and thank you, 
Chairman Sherman, for calling this hearing. Members on both 
sides of the aisle share similar national security concerns and 
oversights priorities in regard to the ongoing nuclear 
diplomacy discussions between the U.S. and North Korea.
    This important issue is fitting for our first subcommittee 
hearing of the 116th Congress. I look forward to continuing the 
strong bipartisanship and cooperation that this committee has 
displayed in the 115th Congress.
    As you said, we are on the letter together and we are going 
to continue to hold the administration accountable. This 
committee worked--this committee works respectfully together, 
even in some areas we may have disagreements.
    Over the next 2 days, President Trump will conduct a second 
summit with Kim Jong-Un, the totalitarian leader of North 
Korea. The word historic is often used to describe this summit. 
That much is true.
    U.S.-DPRK diplomacy has never before taken place at the 
heads of States at this level. We should not forget that when 
President Trump took office, President Obama warned him that 
the Korean Peninsula would present him his most urgent security 
challenge.
    However, over the course of President Trump's first term, 
we have moved from the brink of war to a period of diplomacy. 
Again, the heads of two States, first time ever.
    As this administration moves forward, let us not forget who 
Kim Jong-Un is. He is No. 3 in a family lineage hierarchy that 
has held to deity stature. He has allowed his citizens to 
suffer while chasing his nuclear ambitions.
    He is a dictator who has executed over 140 members of the 
elite military that surrounded his father and grandfather, 
including his own uncle.
    He ordered the assassination of his brother in Malaysia 
using VX nerve gas. He also threatened the U.S. with nuclear 
annihilation and he sent medium-range ballistic missiles over 
Japan and proudly claimed that he would target our territory in 
the South Pacific--Guam--and the mainland, if so desired.
    So, yes, this is a historic second summit. But we must 
call--but we must call for extreme caution as we move forward. 
Keep in mind, three previous administrations have attempted to 
solve the North Korea dilemma and failed, allowing the Kim 
regimes to advance their nuclear programs and capabilities.
    Unfortunately, one fact outside of the White House control 
remains unchanged. The Kim regime does not deal in good faith. 
Kim Jong-Un appears to be using the same play book as his two 
predecessors used before, which is to promise peace, 
denuclearization in exchange for sanction relief. Once this is 
granted, the DPRK continues their deceit and lying and 
continuation of a dangerous nuclear program.
    We need to note that nothing has occurred since the 
Singapore Summit in 2018 in terms of denuclearization. I am 
extremely concerned that any concessions presented by the 
DPRK's diplomatic outreach are hiding equally significant 
risks.
    The president and his team have a giant task at hands. The 
facts show us that North Korea has not taken any meaningful 
action to dismantle its nuclear or missile programs.
    There has been no disclosure of the number of nuclear 
bombs, ICBMs, or even clear definition of what denuclearization 
means to all sides. Much work needs to be done during this 
second historic summit.
    Meanwhile, Kim Jong-Un's international standing has never 
been higher, as you pointed out, Chairman Sherman. Kim's 
diplomatic gambit has led South Korean President Moon to 
embrace him as a partner in the shared dream for peace and 
reunification that has given him the pretext of strategic 
coordination with China and a personal relationship with Xi 
Jinping.
    Kim will also visit Vladimir Putin in Russia later this 
year. Kim's diplomacy has cost him nothing but has short-
circuited the unanimous U.N. sanction campaign. Although Putin 
and Xi were never reliable partners in pressuring North Korea, 
Kim has shown he can leverage China-Russia relationships 
against U.N.-led sanctions and U.S. maximum sanction strategy, 
and our goal is to hold the administration accountable.
    The goal of this committee is to facilitate the summit to 
allow this administration to be successful where previous 
administrations came up short.
    I believe our combined intentions are to hold the 
administration accountable and make sure sanctions are not 
relieved until we get significant assurance and verification 
that the actions of Kim Jong-Un are sincere in bringing 
denuclearization of the Korean Peninsula.
    We are privileged to be joined by the two witnesses who 
have personally sat across from North Korean counterparts at 
sensitive talks and I thank them both for being here with us 
today.
    Today's hearing will be a valuable opportunity for this 
subcommittee and the members to develop an understanding of the 
specifics of this week's summit and what expectations are 
reasonable and what we should realistically expect and how to 
measure success.
    And I yield back. Thank you.
    Chairman Sherman. Who seeks to give an opening statement?
    The gentleman right here. I see the gentleman from 
Virginia.
    Mr. Connolly. I thank the chair, and I want to welcome our 
panelists and especially my old friend, Governor Bill 
Richardson, who has a distinguished career but maybe the most 
important part of his career was he served as a staffer on the 
Senate Foreign Relations Committee--a great place from which to 
launch a career.
    You know, Mr. Chairman, all of us, while our president is 
overseas at a summit negotiating with one of the most notorious 
dictators in the world, we wish him well. We want our president 
to succeed.
    Nothing would be better than to have success in 
denuclearizing the Korean Peninsula once and for all and 
setting the North Korean regime on a peaceful path for 
prosperity and coexistence with its neighbors, especially South 
Korea.
    However, it is important that we approach negotiations 
clear-eyed, and I worry, as do many Americans, I think, that 
our president arrives in Hanoi in a very weakened position and 
because he does not do preparation, he does not read briefing 
papers, he does not like even briefings verbally, that he 
enters into these negotiations maybe with positive spirit but 
not with great preparation, and what could go wrong with that 
when you are up against Kim Jong-Un?
    And one trembles a little bit at the answer to that kind of 
rhetorical question. And so I think it is really important that 
we be very clear about what our goals are and that there be no 
fudging and that there be, frankly, no further concessions to 
the North until we see specific reciprocation on the table.
    And so I hope for success but I think we have to prepare 
for the worst. I yield back.
    Chairman Sherman. Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman, and thank both you, 
Governor Richardson and Dr. Cha, for your service to our 
country along with the men and women that we have serving our 
country all around this world as we speak.
    I was at that same breakfast with the ranking member and we 
had--with Dr. Moon as well as our former Ambassador, Ambassador 
Stephens, who has a long history on the Korean Peninsula.
    The one takeaway that, you know, I think they left us with 
is, I think, as my colleague, Mr. Connolly--let us go into this 
open eyed, but let us also understand realistic expectations of 
what we might be able to get out of this and I think those 
realistic expectations are maybe that the parameters that allow 
you then to say, OK, here is what the steps are, moving 
forward, as opposed to coming out with any concrete deal, et 
cetera, and I think they both--Dr. Moon and Ambassador 
Stephens--said that would be a realistic successful goal if 
there were the framework and the parameters of how you now 
proceed and, you know, what those next steps are, again, not 
with any promises, et cetera, but the next steps in what a 
dialog would be.
    I will be very interested in both of your expertise on the 
Peninsula on what you think those parameters would be and what 
a successful outcome of this meeting over the next few weeks.
    And with that, I will yield back.
    Chairman Sherman. I recognize the gentlelady from Virginia.
    Ms. Spanberger. Thank you to the chair. Thank you, Governor 
Richardson. Thank you, Dr. Cha, for being here.
    The North Korean regime continues to pose a serious 
security threat to the United States, our interests at home and 
abroad, and ahead of the week summit in Hanoi we must also 
recognize how North Korea's belligerent and destabilizing 
behavior endangers our longstanding allies in the region and 
threatens our own country.
    I am always in favor of pursuing diplomatic negotiated 
solutions. However, Kim Jong-Un has repeatedly demonstrated 
that he cannot be trusted and we should always view his 
intentions with incredible skepticism.
    As the United States weighs its diplomatic, economic, and 
deterrence options to push back against North Korean aggression 
and promote peace on the Korean Peninsula, we need to pursue a 
smart tough strategy informed by U.S. intelligence that 
protects the lives of U.S. service members in South Korea and 
actually limits North Korea's nuclear capabilities.
    Additionally, we need to avoid any concessions that could 
jeopardize the safety of our allies and we cannot ignore 
Pyongyang's long record of atrocious crimes committed against 
its own people.
    As talks proceed, I will keep fighting to prevent American 
communities from living under the potential threat of North 
Korean missiles, nuclear weapons, and cyber aggression, and I 
will continue to voice my support for increased U.S. diplomatic 
engagement and improved coordination with our allies that 
protects U.S. interests and recognizes the true threat that is 
currently posed by the North Korean regime.
    Thank you. I yield back.
    Chairman Sherman. Seeing no other requests for time, I will 
introduce our first witness. Since 2010, Governor Richardson 
has operated the Richardson Center for Global Engagement, a 
foundation focusing on conflict resolution, prisoner release, 
and environment protection.
    In his long and distinguished career, he served as Governor 
of New Mexico, secretary of energy, a U.S. Ambassador to the 
United Nations, and as a member of this House for 15 years, 
overlapping my service in the House by exactly 1 month before 
he went on to serve as our Ambassador to the United Nations.
    As Gerry points out, Governor Richardson started working in 
the Senate and then came to the House, showing tremendous 
upward trajectory.
    He has regularly served as an official and unofficial 
interlocutor with North Korea for more than two decades. During 
this time he has visited North Korea eight times, once with Dr. 
Cha, securing the release of four Americans being held hostage 
in North Korea and helping to bring home the bodies of seven 
American service members who died in North Korea.
    We are honored to have you and very pleased to have you as 
the summit begins to open, Governor Richardson.

  STATEMENT OF MR. RICHARDSON, FORMER GOVERNOR OF NEW MEXICO, 
U.S. AMBASSADOR TO THE UNITED NATIONS, SECRETARY OF ENERGY, AND 
                       MEMBER OF CONGRESS

    Mr. Richardson. Thank you, Mr. Chairman, and I just want to 
state that some of my best years working were as a member of 
this House, although I was not privileged to serve on this 
committee.
    It is good to see former friends, good friends--Congressman 
Connolly, Congresswoman Titus, and you, Mr. Chairman. I have 
not had the pleasure to speak to others here.
    But I will tell you I have been here long enough to say 
that I saw Mr. Levin come in and I was elected to Congress in 
1982 with Mr. Levin's father, which shows you how long I have 
been around.
    And it is great to be with Victor Cha. There is probably 
nobody in this country that knows the Peninsula better than Dr. 
Cha, and you are right, Mr. Chairman--we went together to North 
Korea and brought back the remains of seven of our service 
members.
    The first summit between the president and Chairman Kim in 
June 2018 produced a good moment for both leaders. They struck 
a personal relationship, an aspirational joint statement, a 
couple of outcomes such as the repatriation of remains of U.S. 
servicemen, and I think the president does deserve credit for 
taking the meeting with Kim Jong-Un.
    The region is--the region is less tense. There is more 
diplomacy. There is considerable, I would say, better 
atmospherics in the entire region.
    However, the last summit failed to produce what I think is 
a workable framework for negotiations and, like other summits, 
there was little or no staff work on substance prior to the 
meeting.
    As a result, following the summit, the two sides did not 
have a roadmap on how to proceed and what we saw was this 
organized efforts to get to a framework with both sides 
positioning but without any progress.
    I think Chairman Kim has made it very clear that his 
preferred negotiating partner is President Trump, not Secretary 
of State Pompeo, not the chief negotiator, Stephen Biegun, or 
working level teams.
    This is why once a second summit was announced, 
negotiations and communications between the two sides were 
revived. By the way, I think that the special envoy for North 
Korea, Stephen Biegun, is a very skilled negotiator who has 
worked with many Members of Congress and I would recommend the 
subcommittee calling him for briefings after the summit.
    So what we have is a situation where I think these latest 
talks, unfortunately, the whole issues of disarmament--arms 
control, which are key--have yielded a bit to what is called 
peace diplomacy, which is good.
    But the main focus, I believe, and accomplishments should 
have been the dismantling of nuclear weapons, WMDs, of 
missiles, and my sense is that the summit will fall short in 
that area.
    We should be clear about what our expectations of what is 
possible, what is not, and what would be the cost of an 
agreement with the North Koreans.
    Point No. 1--chances that the North Koreans will get rid of 
their existing stockpiles are very slim or nonexistent. They 
believe that these weapons are the reasons we are negotiating 
with them and the only reason we have not yet overpowered them 
militarily.
    Point No. 2--we can expect and demand the North Koreans 
cease all further development of nuclear weapons, WMDs, and 
ballistic missiles and have clear means for verification of 
dismantling such capability.
    No. 3--we can expect and demand that North Koreans cease 
any further testing of nuclear weapons and ballistic missiles 
and have verification of the dismantling of launch and test 
sites.
    Point No. 4--we can expect and demand the North Koreans 
cease any proliferation of operations they have on nuclear 
technology, WMDs, and determine the means to verify this.
    In return--point No. 5--the North Koreans are going to 
demand the removal of sanctions, the end of the war, the 
normalization of relations, and the reduction of military 
presence on the Peninsula.
    So an agreement with these guidelines I believe might be 
possible, should be gradual, but broken into smaller reciprocal 
steps. Thus, a successful second summit between the two leaders 
should produce what the first summit failed to do:
    One, a detailed framework for negotiations including time 
lines, terms of reference, and routine schedule of summits.
    No. 2, set times for ongoing negotiations, both working 
level, high level, and perhaps additional Presidential summits.
    Considering Chairman Kim's preference to negotiate directly 
with the president, Presidential summits should not be ruled 
out as long as good preparatory work is done and I am not sure, 
because of the president's diplomatic style, that we are 
heading into this summit with the best preparations.
    Last, terms of reference for negotiations, general guiding 
principles for final agreement, definitions, and constraints, 
as well as time lines and benchmarks for the negotiation 
process.
    No. 2--and this is very important--an agreed pathway to 
recover and repatriate remains of U.S. servicemen. As the 
chairman pointed out, we got some but there are many, many 
more, and since this is a mutual interest of both sides, it is 
an easy and very powerful outcome for the summit.
    Many of you, I am sure, have relatives or have constituents 
that are affected directly with the remains of our soldiers and 
very compelling families that have come together to organize 
and ask that the U.S. administration, over the years, try to 
bring back the remains of several thousand of our men and women 
that have been in North Korea.
    No. 3, a mechanism and safeguards to mitigate risk of 
conflict if a crisis in negotiation occurs. This can happen by 
establishing a hotline between the leaders or mitigating 
contact group to include regional stakeholders.
    But there are other gestures the United States can offer 
that are short of policy concessions, which can be highly 
symbolic and motivating for the North Koreans, recommitment to 
the aspirational joint statement of the June summit.
    The summit would be a failure, in my judgment, if the 
following is not produced:
    One, failure to produce a practical and detailed framework 
for negotiations, failure to define benchmarks in terms of 
reference--without such framework, negotiations are going to 
fizzle once again until the next summit is announced;
    No. 2, failure to establish a roadmap for recovery and 
repatriation of remains; and three, ambiguity and no record of 
agreements and understandings reached between the two leaders 
during their one-on-one meeting.
    So finally, Mr. Chairman, here is my concern. I stated the 
first one, that the disarmament talks yield and not produce 
concrete denuclearization agreements.
    The danger I see with North Korea is they do not want to 
denuclearize. We have different definition of denuclearization. 
My worry, too, is that somehow we will not get in this summit 
an inventory of all the nuclear weapons, fissile material that 
North Korea has.
    They are very concerned--the North Koreans, having talked 
to them for years--that if they disclose where these sites are 
that we are going to bomb the sites, quite frankly, and they do 
not want to disclose. But that is essential for any kind of 
verification or arms control agreement.
    So my concern is that on the issue of arms control and 
disarmament there is going to be a very low bar for success 
such as destroying the nuclear reactor at Yongbyon, which I 
have been to that reactor. I think that has been promised 
several times. I am not sure how operational it is, and Dr. Cha 
probably has better information than I do.
    Also, there have been some sites that have been allegedly 
missile sites terminated. I am not sure if even verifying those 
sites or that one or two sites that that is significant 
disarmament initiative on the part of North Korea.
    Another concern I have is that the negotiating partners in 
the past that we have had--Victor, myself--have been the 
foreign ministry and, generally, the foreign ministry of the 
North Korean Republic--the DPRK--they are pragmatic.
    You can deal with them, on prisoners, on human rights, 
issues relating to remains, especially the Korean People Army--
the military--which, in my judgment, is quite flexible.
    Our negotiating partners are the intelligence people now, 
the spy chief, and I am not sure that diplomacy wise they are 
necessarily the most flexible. That concerns me, too.
    So at the very end, in conclusion, here is my worry--that 
yes, some positive statements come out of the summit, some 
positive initiatives such as perhaps some joint searches for 
remains of our soldiers to sites that are being looked at for 
joint excavation of remains.
    Two, a liaison office. All right. That is good. That is 
good that we talk. That is good that we have operations in 
North Korea. But the North Koreans may not agree to it because 
they think that that is a way that we spy on them.
    Three, human rights issues relating to North and South, 
investments, economic development, development of joint 
economic facility between North and South, family reunification 
for North and South. That is good.
    But my concern is that the true goal of denuclearization, 
which is the issue of dismantling weapons of mass destruction--
missiles, nuclear detonations, nuclear--will not happen. Maybe 
a freeze. All right. That is better than nothing.
    But those are my concerns, Mr. Chairman. I want the 
president to succeed. You know, this is probably our most 
dominant national security threat that we have.
    But I do not think the threat is diminished.
    [The prepared statement of Mr. Richardson follows:]

    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Sherman. Thank you, Governor. I think we all want 
the president to succeed.
    Dr. Victor Cha is a senior advisor and Korea chair at the 
Center for Strategic and International Studies here in 
Washington, DC. He is also a professor in government and 
international affairs at Georgetown University.
    Between 2004 and 2007 he served as director for Asian 
affairs at the National Security Council at the White House. He 
was responsible primarily for our relations with Japan, the 
Korean Peninsula, and the Pacific nations.
    Dr. Cha was also the deputy head of the delegation for the 
United States at the Six-Party Talks in Beijing.
    Dr. Cha.

 STATEMENT OF MR. CHA, PH.D., SENIOR ADVISER AND KOREA CHAIR, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Cha. Thank you, Chairman Sherman, Ranking Member Yoho, 
members of the committee. It is a pleasure to be here with you 
today as well as with Governor Richardson.
    The last time I saw you I think we were in Pyongyang 
together a little while--a few years back. But it is really 
good to be here with the Governor.
    Let me first say that I think President Trump deserves 
credit for a couple of things. The first is that he stepped 
away from the fire and fury posture of 2017.
    Second is that he has invested in summit diplomacy based on 
the theory that there is only--the reality that there is only 
one person in North Korea that makes the decision. That is the 
leader of North Korea. So you have to talk to them.
    Three, he is really invested a lot of capital into try to 
building a personal relationship with the North Korean leader. 
And so I think, as everybody said here, we want him to succeed 
this week.
    But what I want to do is focus my comments on five numbers 
that I think we need to take into consideration with regard to 
what is going to happen this week, because there are a lot of 
opinions here and around town on North Korea and not a lot of 
data. So I am going to bring some data points to the 
discussion.
    The first is 1963, and 1963 is important because it is when 
North Korea started landscaping the ground for where they would 
build the Yongbyon nuclear complex. So this was not a program 
that started after the end of the cold war when they lost the 
support of the Soviet Union and China.
    They had been building this program for well over half a 
century. So I think as many of us clearly believe, I do not 
think they are fully going to denuclearize.
    The second number is 20. That refers to the number of 
undisclosed missile bases in North Korea--short-range, medium-
range, and intermediate range ballistic missile bases.
    North Korea can close facilities without denuclearizing. 
They can close facilities that they no longer need, things from 
their past, and they can promise things about their future--the 
promise not to transfer, the transfer not to do more testing.
    But what they will hold in their hands is the present and 
that are things like--those are things like these 20 missile 
bases, the nuclear weapons stockpile, things of these--things 
of this nature. That is a negotiating challenge.
    The third number is 108, and this is the number of times 
that the president has made reference to his--made reference to 
the question of whether we need to have U.S. forces in Korea.
    One of the key metrics for me of the success of this 
meeting will not be so much what North Korea gives, because I 
think that they will give very little, but that we do not cut 
into our alliance equities and offer those as negotiating chips 
to North Korea--things like our exercises and our readiness, 
our troop disposition on the Peninsula. These are not things 
that should be traded for temporary gains on North Korea.
    The fourth number is 2007. 2007 refers to the last 
agreement that we were a part of where North Korea agreed to a 
peace regime on the Korean Peninsula and the stipulation then 
was that at an appropriate time North Korea and the United 
States and other parties would engage in peace regime talks.
    The phrase ``at an appropriate time'' referred to North 
Korean denuclearization, return to the nonproliferation treaty, 
and full scope compliance with IAEA safeguards. So the idea of 
a peace regime was contingent on these steps forward.
    What we are doing now is we are potentially front loading 
the peace regime part to see if we can get steps toward 
denuclearization and compliance with IAEA NPT safeguards.
    And, finally, fifth--the fifth number is two, and that 
refers to 2 years have gone by and the administration has still 
not appointed a senior envoy for human rights abuses in North 
Korea. The human rights issue is often framed as a distraction 
to the negotiations but it is not. For all of us to achieve our 
objectives, the human rights issue needs to be addressed.
    President Trump has made very clear that the core element 
of his negotiation is to offer North Korea a brighter economic 
future in return for giving up their weapons.
    That brighter economic future cannot come without some 
addressing of the human rights abuses because there is no 
international financial institution, there is no general 
counsel of any American corporation that is going to recommend 
putting money into North Korea if there are human rights abuses 
along the supply chain.
    So it is in the interests of both the United States, South 
Korea, and North Korea to bring human rights into the 
discussion.
    Thank you very much.
    [The prepared statement of Mr. Cha follows:]

    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Sherman. I am going to hold off on my questions 
for a bit and recognize the gentlelady from Nevada.
    Ms. Titus. Well, thank you very much, Mr. Chairman, and 
thank you and the ranking member for bringing us such 
outstanding witnesses. They are so knowledgeable and I so much 
appreciate their being with us today.
    Both of you have mentioned how the president likes to 
negotiate directly with the chairman and he seems to prefer 
this mano a mano kind of diplomacy as opposed to anything 
multilateral.
    Some of us believe, however, you have to include your 
allies as you move forward in any kind of negotiation and I 
believe part of our success working with North Korea we will be 
able to work in collaboration with both Japan and South Korea.
    Would you two please address what you think are the 
consequences of our not bringing them into the circle or how is 
our leadership in terms of getting them to work together with 
us on this, even though their interests may not always align 
and their interests may not always align with ours?
    Mr. Richardson. In my judgment, Congresswoman, we need to 
work with Japan better than we have. My sense is Japan has been 
left out of the negotiations with North Korea. You know, there 
is a rivalry with South Korea, who has been deeply engaged with 
us.
    So Japan is vulnerable to a missile attack and this is a 
horrific prospect that the Japanese people are concerned about. 
They also are concerned about getting some of their human 
rights issues addressed by North Korea.
    South Korea--I think President Moon has been very 
constructive. He was elected as a peace candidate dialog with 
North Korea. But sometimes I feel that he is getting ahead of 
us on wanting an agreement with North Korea at all costs, in my 
judgment.
    They are great allies, and Dr. Cha mentioned I think it was 
a mistake initially at the first summit for the United States 
to make a concession, which is to reduce or terminate the 
number of military exercises we had with South Korea.
    So the last peg here is China. I do believe China has made 
a positive effort at sanctions. You know, most of the commerce 
that goes through North Korea is through China and China, I 
believe, through the United Nations and other entities, there 
are coal sanctions, energy sanctions, people sanctions against 
North Korea. But they are not going to operate well unless they 
are enforced.
    I think China has done a better job in the past of 
enforcing sanctions. But there is a lot of cross-border 
contraband that they could do a better job of enforcing.
    And, quite frankly, I have been a little worried. I know we 
have some tense trade negotiations with China that somehow 
China has to say, well, you know, you want to slap some tariffs 
on us--maybe we will not help you as much on sanctions with 
North Korea, which is vital.
    Russia has not observed sanctions as much as they should--
in fact, very little. That is another problem.
    So you are right, Congresswoman. You got to have regional 
support for what you are doing. I am pleased that they are 
having this summit in Vietnam.
    I think Vietnam is an emerging positive country that is 
pro-private sector, that, you know, is concerned about Chinese 
expansionism and I am pleased that they are part of this 
regional situation.
    But the Six-Party Talks, which Victor was involved with--
the other countries, which encircle the whole issue--I am not 
sure the Six-Party Talks can be revived again. I hope they 
would. But this is how I see the regional perspective that you 
mentioned.
    Ms. Titus. Doctor?
    Mr. Cha. Yes. So on China, the key is to get China to 
continue to enforce sanctions. Without Chinese economic 
pressure, the North Koreans are not going to be willing to 
negotiate in earnest.
    Ninety percent of North Korea's external trade today is 
with China. So if they do not put pressure on it does not work.
    With South Korea, it is really restraining them. They are 
so enthusiastic about moving forward that they too can do 
things that would undercut U.S. leverage at the table. And then 
with regard to Japan, as Governor Richardson said, they are--
they are going to be important to any political and diplomatic 
deal that is reached with North Korea.
    Historically, they have been important in the past two 
deals and they will be important again. So it is important that 
we--it is critical that as we go into Hanoi that we have all of 
these pieces in the right place, and that takes work. That is--
there is bilateral discussions with the North Koreans but there 
is also all this work you have to do on the side.
    Ms. Titus. Do you feel like that is taking place?
    Mr. Cha. I think with the South Koreans I have a sense that 
it is. But it is difficult with the Chinese because of the 
trade disputes, and Korea and Japan, our two key allies, are 
just not talking to each other right now.
    And so it was important that Secretary Pompeo, in his last 
meeting with the South Korean foreign minister, expressly 
talked about the need for more trilateral coordination because 
usually we go into these meetings with North Korea having fully 
consulted with Seoul and with Tokyo. And right now, because of 
the difficulties between Seoul and Tokyo we are not able to do 
that.
    Ms. Titus. Thank you.
    Thank you, Mr. Chairman.
    Chairman Sherman. The ranking member is recognized.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate your 
testimony.
    Again, I am going to just reiterate the historic nature of 
this. You know, in the past there has been three attempts--in 
the Clinton Administration, in the Bush, and the Obama 
Administration--to bring peace to the Korean Peninsula.
    Yet, during those negotiations they were traditional. They 
had traditional negotiators, people from the State Department, 
diplomacy and all of that, and they did not work.
    And so I think this is a great tactic. History will look 
back on this moment, whether it was a good one or a bad one, 
and let us hope for the--that it turns out the way we want it 
to.
    But and you brought this up, Governor Richardson. An 
agreement should be gradual and broken into small reciprocal 
steps, and you both have experience in the Asian market.
    In order to do business, what we have heard, what is the 
first thing you have to establish to move forward in any 
negotiations over there?
    Dr. Cha.
    Mr. Cha. I mean, you have to establish a relationship. You 
have to establish a relationship with the other party. You just 
do not slap a legal document on the table. You have to 
establish a relationship.
    Mr. Yoho. That is what Americans are bad at. We have been 
told over and over again--you guys want to get here, get the 
bottom line, and you do not want to know anything about us.
    And so I commend, I will say, the foresight of President 
Trump reaching out to do this, and he has lavished praise and 
edification on Kim Jong-Un that he has probably never had, and 
I will hold off on whether he should deserve any of that at 
this point.
    But we need to look into the future of where we are going 
and we cannot move forward if we do not have that initial trust 
and that relationship. And then I had the opportunity to talk 
to Special Envoy Biegun about what denuclearization is.
    Do we have a firm commitment of what it is that all parties 
agree on? Do you guys have any speculation or any idea? Do we 
have a sound definition?
    Mr. Cha. I think that there is a definition, Congressman, 
you know, that has been agreed to by the North Koreans in the 
past in writing and that is denuclearization means they will 
give up all nuclear weapons and existing nuclear programs. That 
is language that they signed up to in 2007.
    I believe that--I believe that that is what the president 
believes and that is the definition I think we will try to push 
for in Hanoi.
    Mr. Richardson. I believe that the North Koreans--we have a 
different perspective of what denuclearization is. I think that 
is the problem. In other words, we think, Congressman, that 
denuclearization is dismantling, destroying, ending whatever--
the 40 nuclear weapons, the WMD.
    The North Koreans do not believe in that definition. They 
want to keep their weapons. They want to keep some of their 
weapons.
    Now, so far, they have dismantled nothing. So there is a 
definition--what is the word I am looking for--a definition 
deficit here----
    Mr. Yoho. Yes.
    Mr. Richardson [continuing]. On what denuclearization is. 
Now, I do agree, you have to have trust--I think maybe that was 
the word you were looking for--in the relationship between the 
two leaders and I will maybe take a little issue with what you 
said.
    Under the Clinton Administration, the agreed framework, 
North Korea did not produce any weapons for 9 years and I think 
the Bush Administration negotiated well with North Korea. The 
problem was North Korea was intent on increasing their arsenal 
and they are still doing it right now while saying they are for 
denuclearization.
    Mr. Yoho. Right. And I just--let me just add here, I am not 
putting criticism on anybody----
    Mr. Richardson. Right. OK.
    Mr. Yoho [continuing]. You know, because that is not going 
to do us any good. It is what can we learn from that that we 
can move forward. And, again, that breakfast I had this morning 
with Dr. Chung-in Moon, he has been there at all three 
negotiations--probably the only person that was there on the 
first three and he has been to every meeting up there with 
President Moon.
    He says he has seen a distinct difference in North Korea 
today from when it was before. Before when they went there it 
was all military that was present in the negotiations, in the 
streets, in the Pyongyang whereas today you do not see hardly 
any military presence.
    So the atmosphere in North Korea has changed. Let us just 
hope that we can have a definition that we all agree on that we 
can move forward based on that trust, and what he said that Kim 
Jong-Un has said that we have destroyed Yongbyon nuclear site.
    But it was a nonfunctional one, as we understood it. But, 
yet, he has not sent anybody in there to verify it from the 
outside world other than their word and those things have got 
to be built upon to move forward.
    And let us just hope that the skilled people we have, with 
Secretary Pompeo and Stephen Biegun, can move in that direction 
to help facilitate those documents to move forward and that 
once and for all we bring this Korean conflict to an end, peace 
to the Peninsula with reunification as they see fit to serve 
them between North and South, and that we look at trade because 
our top four trading--after World War II we were in a war with 
Germany, France.
    Since then it was Korea and Vietnam. None of those 
countries today have nuclear weapons and are--some of them are 
our best trading partners.
    So the idea that we want to implore to Mr. Kim is you do 
not need nuclear weapons. Let us just focus on trade and get 
rid of this and move forward on our economies and our 
countries.
    I yield back. Thank you.
    Chairman Sherman. Thank you.
    The gentleman from Virginia.
    Mr. Connolly. I thank the chair. Well, maybe on a more 
critical note--I think a case could be made for diplomatic 
malpractice in how we are approaching North Korea. Remember 
that this is the administration that ripped up the JCPOA with 
Iran, that by all accounts is working in every metric, because 
it was inadequate.
    And yet, they meet with the nuclear threat, Kim Jong-Un and 
North Korea, and he gets international legitimacy from meeting 
with the president of the United States, that audience with the 
president directly, the cancellation of military exercises with 
our South Korean allies, and in the joint statement they do not 
even mention that denuclearization needs to be irreversible and 
verifiable, which is one of our goals.
    Not even mentioned in the joint statement. Nor is there any 
mention of the North's ballistic missile program--a criticism 
used to justify the evisceration of the JCPOA.
    Why should we not look at that and call that what it is, 
diplomatic malpractice? We have nothing, and Kim Jong-Un has a 
lot.
    Now, maybe that is a strategic sort of move where we are 
being patient and waiting for the future and this summit may 
then prove that there are other steps. But it seems to me that 
thus far nothing has happened and we have not even furthered 
the goals ostensibly we say we are committed to.
    Dr. Cha.
    Mr. Cha. Thank you, Congressman.
    So I am a professor so I will give you another number, and 
that is seven. That is the number of pages that the agreement 
that we worked on in 2007 was. It was seven pages long--the 
Six-Party joint statement.
    The JCPOA, I think, was 150 pages. I do believe that if we 
are going to move forward with denuclearization with North 
Korea, we are going to need a document that is much more 
detailed, certainly, than what came out of Singapore and even 
what came out of the previous two agreements under President 
Bush and under President Clinton.
    Mr. Connolly. Well, let me just--a little footnote. Yes, 
but from your point of view after the first summit, did Kim 
Jong-Un commit to anything?
    Mr. Cha. No. I think the first summit laid out a statement 
of principles. In many ways, it was an agreement between the 
leaders about what the outcome of diplomacy should be, which is 
normalized relations, a peace treaty, and a fully denuclearized 
North Korea.
    But subsequent to that, there were really no steps that 
took us tangibly down any of those paths.
    Mr. Connolly. Governor Richardson.
    Mr. Richardson. With what Dr. Cha--what you said, on the 
diplomacy side, I have been very involved with the remains 
issue. I think something positive has come out of that. We need 
to do a lot more.
    I do think there are some human rights family 
reunifications between North and South that are better.
    Third, you know, this is very vague but there is less 
tension in the Peninsula. However, Congressman, I agree with 
you in terms of what North Korea committed to in the first 
summit--complete denuclearization.
    They have done nothing there. In fact, they increased their 
enriched uranium capability. You know, they are not doing much.
    Mr. Connolly. That is right.
    Mr. Richardson. This is why I just hope the president, and 
Congressman Yoho mentioned Stephen Biegun and Pompeo--
especially Biegun. He knows what he is doing.
    Mr. Connolly. Mr.--Governor Richardson, because I am going 
to run out of time but I thank you for that answer.
    Let me ask one other question. One of the concerns some 
people have is that North Korea is about to get us into a trap 
so that we sign an agreement ending the war, after 66 years.
    But in doing that, which is a laudable goal, we undermine 
the rationale for U.S. troop trip wire presence in South Korea. 
Is that a realistic concern, Dr. Cha, and also Governor 
Richardson?
    And I yield back the balance of my time.
    Mr. Cha. Yes. I mean, I think there is some concern among 
experts that in trying to get bigger steps on denuclearization 
we might put bigger chips on the table.
    As I said in my testimony, I think there should be a bright 
red line between things that we do on sanctions versus things 
that we do with our alliances. Sanctions, liaison offices, some 
of the things that Governor Richardson mentioned--they may be 
part of the bargain. But we should not be trading away alliance 
equities.
    Mr. Connolly. If the chair would allow Governor Richardson 
also to answer, I thank the chair.
    Mr. Richardson. Yes. Congressman, I agree. I would not 
trade an end to the war treaty or unless there is a 
denuclearization of sizable numbers of dismantling of weapons 
and WMD and missiles. I would not.
    Perhaps a vaguer statement that says tensions are less and 
the war is over, OK. Maybe. But not as a tradeoff unless there 
is substantial denuclearization.
    And I am concerned. There have been some reports that we 
are considering that. And it means exactly what you said--the 
vulnerability of us being or having to look at troop reductions 
in South Korea. We have 30,000 troops there--28,000.
    Chairman Sherman. I will recognize Mr. Bera after I 
recognize the gentleman from Utah.
    Mr. Curtis. Thank you, Mr. Chairman and Ranking Member. 
This is an important hearing. Thank you to our witnesses for 
being here.
    I am hopeful that we see a productive summit. I, for one, 
view it as historic and important to be taking these steps. 
However, we know that the Kim regime does not negotiate in good 
faith and I think many of us are optimistic but worrisome.
    Regardless of the outcome of the summit, I for one will 
continue to urge the administration to use every possible 
economic and diplomatic solution to find answers and bring us 
forward.
    As I listened to your testimoneys and questions of my 
colleagues, I sometimes feel like we have a cultural thing here 
in America where we want to solve everything immediately and we 
hope that one summit or two summits has this magic ability to 
solve it.
    So I am curious, from both of your perspectives, not 
whether we are on the cusp of solving this but how do you see 
the trajectory? Are we improving and moving in a good 
trajectory? I guess that is my simple question.
    Governor first, and then Dr. Cha.
    Mr. Richardson. Well, the trajectory is going to depend a 
lot on the results of this summit--this upcoming summit 
starting today or tomorrow. My hope, Congressman, is that there 
be substantial progress on the denuclearization issue.
    You talked about long range. I think it was unrealistic for 
anyone to expect North Korea to denuclearize completely. They 
always have--and if you look at that language, they have said 
it in the agreement with Clinton, with Bush, and they never do 
it.
    Now, is there a trajectory that is more positive? I think 
we have underestimated Kim Jong-Un. I think in the end--and I 
am not--I am not praising him. I am saying he is--his vision is 
an exchange for the lesser--some dismantling of nuclear 
weapons.
    He wants American investment. He wants European investment. 
He wants infrastructure. He wants energy, a new grid, and so 
the trajectory is in that direction. His father, I think, was 
more of a--I will not call him--he was more of a negotiator.
    He used to say, OK, well, you want this prisoner back from 
the United States--send President Clinton to pick him. You 
know, things like that.
    Mr. Curtis. Right. And I hate to push you but I am going to 
be short on time so let me--let me move on.
    Mr. Cha. So I think if we look, starting, Congressman, from 
2017, in 2017 there were 20 North Korean ballistic missile 
tests and a hydrogen bomb test and we were moving military 
assets to the region.
    I mean, it was a really scary time. I mean, since then we 
have gotten no diplomacy. We have gotten no more testing by the 
North Koreans.
    I just came back from South Korea about 10 days ago and 
there is a completely different view now in South Korea. 
Everybody says, the war is over--like, why do not we just admit 
the war is over.
    So I think there has been certainly a positive trajectory 
since 2017. But, as the Governor said, the key piece is we 
really need to see tangible steps on denuclearization coming 
out of the summit because this has to be a road to somewhere, 
right, and so that is the key piece.
    Mr. Curtis. Let me kind of followup on that. We almost 
exclusively talked about denuclearization and yet we have said 
in this hearing today that Japan could be hit by long-range 
ballistic missiles.
    Is it a mistake not to have a broader scope than just 
denuclearization?
    Mr. Cha. No. I agree that it must include ballistic 
missiles, not just the long-range but also the shorter and 
medium range ones.
    Mr. Curtis. As well. What is there culturally that 
Americans need to understand that would help us better 
understand this process. The two cultures, right, are very, 
very different.
    I mentioned earlier ours is one of immediate expectations 
and things like that. What is there culturally that Americans 
could better understand that would help us get our arms around 
this process?
    Mr. Richardson. From my experience--from my experience, 
they negotiate totally differently than we do. Their idea of a 
concession is they think they are always right.
    It is a deity that guides them--the father or the 
grandfather of Kim Jong-Un--and their idea of a concession is 
they will give you a little more time for you to get to their 
point of view.
    That is their idea of a concession. They always want you to 
go first. You make the concession and then we will--you know, 
we will see about whether we reciprocate or not. They are 
deeply suspicious of us, totally.
    I mean, they think if we--if they disclose where their 
weaponsites are we are going to bomb them. I mean, there is 
just--I have been there several times. It is just another--
another world.
    Mr. Curtis. OK. I am out of time. Let me thank both of you 
and yield my time back.
    Chairman Sherman. I know I had said it would be the 
gentleman from California. However, the gentlelady from 
Pennsylvania has returned. She is vice chair of this 
subcommittee and she is recognized.
    Ms. Houlahan. Thank you. I appreciate that, and thank you, 
gentlemen, for your testimony.
    The history of negotiations between the U.S. and North 
Korea is, obviously, long and tumultuous. But one thing is 
clear and I think a lot of people have been talking about it--
the importance of all of our allies and our partners in the 
region and making sure that we are respectful to them.
    What is your assessment of how the administration is or is 
not implementing ARIA, or the Asia Reassurance Initiative Act, 
which we recently signed in December?
    And, specifically, can you talk a little bit about the 
U.S.-Korea special measures agreement that was recently also 
agreed to and the impact that it might have on our bilateral 
relationships since it is a short timeframe instead of a longer 
timeframe?
    And then, finally, if you could talk about that impact on 
Japan, who is also up for that same kind of conversation as 
well and its impact on our relationship with that important 
ally.
    Mr. Cha. So, Congresswoman, I would say that the special 
measures, or SMA negotiations, have created a lot of ripple 
effects I think not just in Korea but in Asia and allies, more 
broadly.
    I mean, it is clearly a different template for negotiating, 
at least in the Korean case, the nonpersonnel cost of 
stationing U.S. forces in Korea.
    You know, someone said the president wants cost plus, which 
is very different from what has been negotiated in the past. A 
very tumultuous 12 months of negotiation led to this interim 
agreement. It is not followed as much here in the United States 
but it is followed very carefully in the region.
    And the SMA Korea negotiations were watched by Japan. They 
were watched by NATO because they are next on the block. These 
are not easy negotiations even in the best of times. But I 
think these particular negotiations are quite contentious and 
it is not clear to me what the ultimate effect will be in terms 
of how the allies perceive the United States as we continue to 
as for more and more of these allies.
    Mr. Richardson. Congresswoman, sometimes I feel that the 
U.S.-South Korea relationship is very important. But, if 
anything, I would say to this administration, for instance, 
they are obsessed with having South Korea pay more for the 
military relationship that we have.
    We do want to save money, but the U.S. military 
relationship with South Korea is in our interest, too, and 
sometimes, I will say, the president says, well, they should 
pay more. All right, and South Korea is paying a little more.
    But that is a very valuable military relationship for us, 
not just because of--not just because of North Korea but 
because of China and the region.
    Second, with Japan, we should be more conscious of Japan's 
needs in this security relationship with North Korea. Yes, the 
president and the prime minister of Japan have a very good 
personal relationship.
    But somehow the Japanese government--you can get a briefing 
on this--feels that they have been left out of this 
negotiation.
    Ms. Houlahan. Yes.
    Mr. Richardson. China--again, it is a very complicated 
relationship we have with China and we absolutely need them to 
keep enforcing sanctions or the pressure on North Korea will 
deteriorate.
    Now, there are some very good, as I mentioned, family 
relationship, more investments between North and South. I think 
all of that is good--less tension.
    Ms. Houlahan. Thank you.
    And my last question is, as a member of the Armed Services 
Committee as well as this one, I am very concerned about the 
suspension of exercises in other committee hearings that I have 
had.
    The military folks have been also similarly concerned about 
how long we can do this and still remain ready and effective. 
Do you all have any insight into that as well?
    Mr. Cha. So my understanding is that when we go for a full 
year without exercising then we are really starting to erode 
readiness. There are elements, as you know well, of these 
exercises that we can do in other places like Cobra Gold. But 
there are certain elements of the exercise that can only be 
done on the Peninsula.
    So this is something really that has to be considered, you 
know, if we are looking to suspend the spring exercises, which 
were to start actually this month. If we suspend those again, I 
think we really need to think about how we are going to 
maintain readiness because readiness is part of deterrence and 
that is what has made the Peninsula peaceful since 1953.
    Ms. Houlahan. Thank you.
    And sir?
    Mr. Richardson. I would just add, this was a concession in 
the first summit that we got nothing in return. So we should 
not concede that one again. Maybe you bring them back, those 
exercises, if North Korea is not conscious of doing something 
on denuclearization.
    They are valuable for South Korea, for the United States, 
for our troops. You know, you want them ready in case there is 
a misfire or some kind of small conflict that could light up 
the whole region.
    Ms. Houlahan. Thank you. That is incredibly helpful, 
gentlemen. Thank you very much for your time. I yield back.
    Chairman Sherman. The gentleman from Utah is recognized.
    Oh, excuse me. No. The gentleman from Pennsylvania is 
recognized.
    Mr. Perry. Thank you, Mr. Chairman. Thank you, gentlemen, 
for your testimony.
    Dr. Cha, what was the United States posture vis-a-vis North 
Korea prior to this administration from a hostility/wartime 
footing? I mean, I am trying to--I am not trying to evoke--I am 
not trying to put words in your mouth but what would you--how 
would you characterize our posture vis-a-vis North Korea?
    Mr. Cha. Prior to the state of this Administration it was, 
I think, popularly known as strategic patience, which was sort 
of a medium level sanctions plan with the effort of trying to 
bring North Korea to the table to negotiate.
    Mr. Perry. And what was North Korea doing under that 
posture?
    Mr. Cha. They were actively building their nuclear weapons 
programs and ballistic missile programs and were on the verge 
of testing at the end of--at the end of 2016 and I believe that 
those tests would have happened in 2017 no matter who was 
president.
    Mr. Perry. Right. So they were building, progressing, 
testing, and from the--from the United States standpoint, I 
think that we were at a posture of considering armed conflict 
with North Korea.
    But if I am the only one here that thinks that--I mean, do 
you get that sense that that is where we were?
    Mr. Cha. My sense is that the previous administration was 
really focused on sanctioning toward the last--sort of last 12 
months in office, were really focused on ramping up the 
sanctions campaign, which then the Trump administration took to 
an even higher degree.
    Mr. Perry. I agree with that. But having--I participated 
personally in the military exercises on the Peninsula as a 
service member and I was in this house at the time of the last 
administration and the conclusion of it and I attended 
briefings with uniformed service members who, I would just tell 
you, in my opinion, the posture of the United States military 
was planning for armed conflict if necessary in North Korea. 
And I just want to ask if you dispute that--if you can dispute 
that. Maybe that is the best way of putting it.
    Mr. Cha. I do not know, Congressman. I mean, I think what 
I--what I recognized the most was this effort at building 
sanctions on the regime and focusing on more robust exercises.
    Mr. Perry. Sure. Sure. But the sanctions were not working, 
right? They were still constructing, they were testing, and 
they were posturing--the rhetoric, everything, was, in my 
opinion--maybe I am wrong so if I am wrong correct me.
    But everything we were seeing from North Korea was 
bellicose.
    Mr. Cha. Yes.
    Mr. Perry. Yes. Right? So let me ask you this. Is the fact 
that they are not launching missiles out into the ocean and 
over Japan and continue with nuclear tests for the last--
essentially, the greater part of the last 2 years, is that--can 
that be viewed as a concession or not?
    Mr. Cha. It is certainly an important nonevent. Yes. 
Fifteen months of no testing of any sort is good for the 
diplomatic climate and also makes it harder for them to develop 
their programs.
    Mr. Perry. Right. Right. So, look, I am not pie in the sky 
here and I am not looking, like, through rose-colored glasses. 
North Korea is a hostile actor and an enemy of the United 
States of America and Western civilization and democracies all 
around the world. That is a given, right?
    But I think we are at a--you know, I think it is hard to 
say objectively that we are not, at this very point, in a 
better place from a rhetorical and a wartime footing vis-a-vis 
North Korea than we were at the end of the last administration.
    I think it is--and there has been a price to pay for that. 
Let us just--let us just admit there has been a price to pay 
for that.
    But I think that Americans right now are sleeping a little 
better not wondering if tomorrow their sons and daughters are 
going to be called up to go to war on the Korean Peninsula with 
potential horrific artillery barrage on Seoul or nuclear 
weapons being exchanged across the lines. I mean, is that 
reasonably safe to say?
    Mr. Cha. Yes. I mean, I think the--this administration's 
decision to engage in the summit diplomacy with North Korea has 
certainly played a role in their not testing----
    Mr. Perry. Right.
    Mr. Cha [continuing]. And that has made the situation a lot 
calmer.
    Mr. Perry. So, because the tenor of the meeting seems to be 
that the president has failed. It is more dangerous. We are 
giving everything away. We are getting nothing for it.
    Look, I do not like dealing with dictators at all. But I 
understand they live in the world today and if we are going 
to--and if we are going to, you know, try and fix things we are 
going to have a discussion with them and I do not remember 
anybody on this committee on the other side of the aisle being 
too upset when the last administration negotiated with Cuba and 
opened up relations with them.
    One last question, though, for you, sir. With Asian 
diplomacy particular and specifically vis-a-vis other places in 
the world, is not the personal relationship key to success in 
that as opposed to the tenets of an agreement or the--or the 
facts of the matter.
    I mean, the relationship is what folks from that part of 
the world see as key and building a trusting relationship to 
moving forward. Is that true or not true, generally speaking?
    Mr. Cha. Yes. I mean, I think if we want a watershed 
agreement with North Korea there needs--you need to establish 
trust with the only person who makes a decision.
    Mr. Perry. And how many meetings has this president has 
with that--with President Kim?
    Mr. Cha. This is now his second meeting.
    Mr. Perry. This is now--so we have--we have one meeting. We 
have had one meeting and we are predicating all the rhetoric 
here in this committee on one meeting the start. Not the end of 
negotiations, like in the JCPOA, but the beginning.
    With that, Mr. Chairman, I would yield.
    Chairman Sherman. I recognize the gentleman from 
California.
    Mr. Bera. Great. Thank you, Mr. Chairman.
    I am going to take a little bit of different perspective 
than my colleague from Pennsylvania. I do not view foreign 
policy and our strategic aims through a lens of partisanship or 
one administration or another administration and I would say, 
you know, I had my issues with the prior administration--
President Obama and strategic patience, which I did think 
eroded some of our strength in that region. You know, I would 
point to the South China Sea and the complexity of not 
addressing that a bit more aggressively.
    I would also argue that, you know, having been on the same 
committee, having gone through those same briefings, I do not 
think the prior administration was putting us on a war footing.
    I do think our troops on the Peninsula constantly are 
training, constantly are prepared. For those of us that have 
gone to the DMZ and talked to those troops, they are constantly 
ready for anything to happen.
    I do think 2 years ago this time and even a year and a half 
ago the tensions on the Peninsula, the potential of kinetic 
conflict, the potential of war was much higher.
    I will credit the Trump administration for being willing to 
negotiate and, you know, maybe there was a strategic goal there 
of increasing those tensions, increasing the possibility of 
war, increasing the sanctions, to bring them to the table.
    So, I am going to give credit to the Trump administration 
just starting a dialog. I have very real concerns that the 
outcome of the first summit was, you know, a halting of our 
troop preparation, our exercises in the region.
    I think we have to continue to maintain a strong posture 
there. I am very concerned, and both of you referenced it. We 
hear the rumblings of troop reductions, troop withdrawals. You 
know, regardless, even if we had a safe peninsula that was 
moving forward with denuclearization, the presence of our 
troops on the Peninsula served broader strategic importance--
served strategic importance of stabilizing that region.
    We have an adversary in China. It serves a strategic 
importance in being a check on China's aggressiveness in the 
region and I would caution the administration. I would point 
out that Congress does have an oversight role here. There are 
checks and balances.
    Our colleague from Arizona, Mr. Gallego, has in the prior 
Congress introduced legislation to--you know, if troop levels 
fall below a certain level you have got to come to Congress and 
justify that, and I think those are the right steps for us as a 
body.
    This is going to be a long process and, again, I am not 
criticizing the Trump administration. I would rather see 
dialog. I would rather see where we are today, where the 
atmosphere on the Peninsula is not one of imminent war or 
concern but is one of looking at how do you--how do you move 
forward.
    So both of you, in your opening testimony and, you know, my 
sense is let us not set expectations for this summit super high 
but let us actually be realistic. And if we can come out of the 
summit with that framework and that parameter of what does this 
look like, moving forward, in terms of meetings, who is going 
to be negotiating--future Chairman and President Trump 
negotiations.
    Governor Richardson, what would--if you were sitting at the 
negotiating table what would success look like to you? And then 
I will ask the same question to Dr. Cha.
    Mr. Richardson. Well, success for me would be a commitment 
by North Korea to dismantle some--some of their weapons, 
missiles. I will not get into a number because they vary. WMD--
some tangible dismantling. What else are remaining?
    Mr. Bera. Do you think that is realistic out of this 
particular summit as opposed to, I guess, success--what a 
framework--next negotiating steps would be?
    Mr. Richardson. A freeze would be a mild success of 
existing testing, weapons, new development. But, in a way, 
North Korea has already done that, you know, so you want to 
move forward.
    Establishing a liaison office is good for both sides. 
Dialogue--it would allow, for instance, our inspectors to have 
a chance. Our inspectors' verification time lines--that is also 
a definition of success. More joint excavations of our remains. 
I think Dr. Cha mentioned eventually a discussion on human 
rights, religious freedom there. But I think that is more----
    Mr. Bera. And since I am going to run out of time let me 
just--you know, some of us also think part of the reason why 
Chairman Kim is willing to sit at the table now is they have 
acquired their nuclear capabilities. They have acquired their 
missile capabilities, et cetera.
    So now they are not negotiating from a place of weakness. 
They are negotiating from a place where they have acquired some 
of those capabilities and that is certainly--let us go into 
this with our eyes wide open.
    Mr. Cha. So I would say that in terms of what would be 
success, you know, the key word is verifiability. Whatever the 
North Koreans give us, whether it is a couple of sites or 
whether it is a promise not to produce more fissile material, 
it has to be verifiable, right.
    And so they decommissioned some sites after the Singapore 
Summit, as Congressman Yoho said, but they did not allow 
anybody to verify it. And so that is really the key piece to me 
is to see whatever they have put on the table--how small or how 
large--it has to be verifiable.
    Chairman Sherman. I recognize the gentlelady from Missouri.
    Mrs. Wagner. I thank--thank you, Mr. Chairman, for 
organizing this hearing and thank you to our witnesses for 
their time.
    Following up on my friend and colleague, Mr. Bera's, line 
of questioning, Dr. Cha, U.S. special representative for North 
Korea, Stephen Biegun, who Governor Richardson has spoken so 
highly of, has noted that even as United States pursues a 
direct leader-to-leader format for the current talks with North 
Korea, it is supplementing summit-level meetings with intensive 
working-level negotiations.
    Do you think this strategy will better ensure the U.S. 
walks away from Hanoi with some sort of acceptable deal, 
agreement?
    Mr. Cha. Congresswoman, I think what--certainly what was 
better in process with regard to this summit was that there was 
a lead up of intense, as you said----
    Mrs. Wagner. Right.
    Mr. Cha [continuing]. Working-level negotiations that Steve 
Biegun led. The first summit in Singapore, as you remember, was 
just an announcement that they were going to meet and there was 
no working-level effort.
    So those working-level meetings are important to help the 
outcome of the summit be successful.
    Mrs. Wagner. Not just happening at the summit. Let us be 
clear, Dr. Cha. It has been in the lead-up to the summit----
    Mr. Cha. Yes.
    Mrs. Wagner [continuing]. In a very intensified way, from 
what I understand. Is that your understanding?
    Mr. Cha. Yes. Yes. And that is--that is the way it should 
be done. Yes.
    Mrs. Wagner. Great. Wonderful.
    Governor Richardson, you have spent decades working through 
formal and informal channels in North Korea to secure the 
release of American citizens held unjustly by the Kim regime.
    Informal exchanges like the relationships you have built 
over the last several years can be highly effective in 
promoting mutual understanding. How do your efforts support and 
intersect with official talks?
    Mr. Richardson. I think you asked a question about Special 
Envoy Biegun. I think he is very effective. You know, the 
administration consults with me. They do not listen, though.
    [Laughter.]
    Mrs. Wagner. They do not listen to me either.
    Chairman Sherman. They do not even talk to me.
    [Laughter.]
    Mr. Richardson. They do, sometimes.
    Mrs. Wagner. I know.
    Mr. Richardson. My point here, Congresswoman, is I think 
you need, yes, Presidential--the president. That is good. 
Personal relationships. But you need the staff work in 
preparation for that.
    Mrs. Wagner. Right.
    Mr. Richardson. And sometimes I wonder, because of the 
president's style, that that does not happen as much as it 
should. I hope he is listening. I mean, we are going to find 
out in 2 days whether this summit is a success or not. He 
listens to Envoy Biegun, the Secretary Pompeo, you know, who 
has had to negotiate with the North Korean's spy chief ever 
since the first summit or before the first summit.
    My worry is--and before, I think, you came in I said it is 
better to negotiate with the foreign ministry types in North 
Korea rather than the intelligence people because they are more 
flexible.
    We will see what happens in this next summit. We are kind 
of hanging on to--for the result.
    Mrs. Wagner. But you would agree that both formal and 
informal lines----
    Mr. Richardson. Absolutely.
    Mrs. Wagner [continuing]. Of communication are important, 
correct?
    Mr. Richardson. Absolutely. Absolutely. You know, on 
prisoner exchanges.
    Mrs. Wagner. Right.
    Mr. Richardson. On rescuing American servicemen, on 
remains--yes. I mean----
    Mrs. Wagner. We thank you for your leadership in that----
    Mr. Richardson. Thank you.
    Mrs. Wagner [continuing]. In that regard. Russia and China 
appear to be weakening on sanctions enforcement, although U.S. 
negotiators are working to solidify support in advance of the 
Hanoi Summit.
    Dr. Cha, how worried should we be about Chinese and Russian 
compliance and how can the U.S. convince the international 
community to kind of hold the line?
    Mr. Cha. So it is--I think it is a real problem, 
Congresswoman. Any agreement we make with North Korea has to be 
enforceable, and enforceability means also sanctioning if they 
violate the agreement, and China holds a lot of cards when it 
comes to sanctioning.
    I mean, I think the only--the only way to really compel 
China to do this is to be willing to secondary sanction--I 
mean, to go after Chinese companies that are willfully and 
knowingly violating U.S. law. That is the only way to----
    Mrs. Wagner. Well, you found that secondary sanctions can 
be very effective in that regard?
    Mr. Cha. I think--I think they can. They certainly spread 
the net of who is responsible when it comes to this. I mean, 
China is a U.N. Security Council member so they should be 
complying with the 11 U.N. Security Council resolutions with 
regard to North Korea on--particularly on trade. But they 
really have not been for about 15 months now.
    Mrs. Wagner. Well, thank you. I think my time is about to 
expire so I yield back, Mr. Chairman.
    Chairman Sherman. Thank you. I will recognize myself at 
this point. As to denuclearization, I am not sure that we 
disagree as to what it means. I think we disagree as to when.
    All the signatories of the nonproliferation treaty 
including Russia and the United States are on record saying we 
look forward to eventually having no nuclear weapons in the 
world and I am confident that Pyongyang will denuclearize as 
soon as the United States and Russia do so.
    As to the change in the level of tension, 2015 and 2016 was 
not a period of particularly high blood pressure. We had a 
policy of strategic patience. It was not a good policy but at 
least it was not a policy fraught with tension.
    The tension was in 2017. It has declined since then. As to 
a minimal level of success, I think I mostly agree with the 
Governor. But I would say that if we had a verifiable halt to 
the creation of more fissile material that would mean we were 
safer.
    If all we have is a halt to testing, well, Kim has said he 
has done all the testing he needs. So a new test might not make 
us less safe since it would give him the information he already 
has or claims to already have, whereas, clearly, a halt to the 
creation of new fissile material, if verifiable, would make us 
safer.
    Dr. Cha, you talk about the importance of human rights. We, 
obviously, need to be bringing this up. It is very important to 
the North Koreans. One place where they could make a concession 
easily is to allow more family reunification visits, 
particularly for the 100,000 Korean Americans who have family 
north of the 38th Parallel.
    Is there any reason why Kim would not make that concession 
other than he knows we want it so he would not want to give it 
to us? Any disadvantage to him to allowing such family 
reunifications with Korean Americans?
    Mr. Cha. No. I mean, I think, as you said, that there are 
still many divided families as a result of the Korean War. This 
could be a very useful humanitarian gesture.
    I say useful because, from the perspective of incentives, 
there is every reason for him to do it if he wants to have, you 
know, a more positive view of the--of himself in the broader--
in the broader press.
    But there still needs to be--there needs to be a raising of 
the human rights abuses, not just humanitarian issues.
    Chairman Sherman. Gotcha.
    Mr. Richardson. Congressman, could I just add to that?
    Chairman Sherman. Yes.
    Mr. Richardson. What North Korea needs more than anything 
in terms of investments, it is not necessarily the United 
States. It is South Korea. And there is an effort by South 
Korea to possibly invest in the railway in North Korea, the 
Kaesong joint facility that was shut down.
    So my point is that North Korea will want to make strong 
family reunification. It is in their interests if they want 
this South Korean investment. I mean, it is called politics. It 
is something that you are all the experts.
    Chairman Sherman. Now, the North Koreans have a 
conventional military double the size of South Korea and yet 
they are pressuring us to remove some of our 28,000 troops 
while, of course, North Korea has almost a million, or to make 
those troops less effective by canceling exercises.
    I have been told that the long-term North Korean dream is 
you get America to withdraw its forces. This makes 
international business less interested in investing in South 
Korea. That leads to the kind of economic decline in South 
Korea that makes unification on their terms possible.
    Is there any--how do the North Koreans argue for a 
diminution of American forces in South Korea when they have 
such a powerful conventional military?
    Governor or Doctor?
    Mr. Cha. Well, I think it goes along with, and this goes 
back to the gap and denuclearization definitions--it goes back 
to the way the North Koreans define denuclearization.
    They define it as being--their willingness to do this will 
be--will happen when the United States is off the Peninsula and 
no longer has a security commitment to South Korea. That is 
when they consider real--the real concept of denuclearization.
    Chairman Sherman. It's good politics in the United States 
to announce an end to the Korean War and sign the peace treaty. 
All Americans like peace treaties. This would not cause 
pressure on the United States to move its forces from South 
Korea.
    We have a--World War II is over with peace treaties in 
Europe and Japan and we had troops in Germany--we have troops 
in Japan. So the question is would a peace treaty with North 
Korea--it, obviously, is important to them--but it--would it 
create pressure in South Korea to expel American troops?
    Doctor or Governor?
    Mr. Cha. Quickly, I will just say that--yes. Quickly, I 
will just say that I think it would start to create a 
discussion about the utility of U.S. forces in Korea once a 
peace declaration of some sort was made, certainly, among the 
progressive camp in South Korea. Maybe less so among the 
conservative camp, but certainly among the progressive camp.
    Chairman Sherman. OK. And then, finally, Governor, what are 
the phony concessions that North Korea can make? Are there 
facilities that are no longer useful to them? Yongbyon, I 
guess, may have outlived its usefulness. The nuclear weapons 
testing facility they destroyed some or all of because it 
outlived its usefulness.
    What are the things they can give up that sound important 
that are not important?
    Mr. Richardson. You mentioned the two that are, I think, 
most obvious--the Yongbyon facility, this test site where they 
blew up I think the sides and they did not allow inspections or 
the press there.
    Those are what I would expect they will try to get away 
with. I just happen to think that if they continue to say, we 
are not going to have any testing--nuclear testing, missile 
testing--they have already done that. I want them to do a lot 
more.

    While I am not diminishing that but, this is something that 
they have done the last--it is now almost a year. Let them do 
more. Again, I agree with Dr. Cha. Verification is essential of 
what they do, and I am concerned with one concession that I 
sense we may be giving up and that is list all of your sites, 
your facilities, and inventory so this can be inspected and 
verified, and I sense that we are kind of--may lose that at 
this summit.
    Chairman Sherman. All the press reports are that we have 
given up on that, and that--and with that, I will recognize the 
gentleman from Michigan.
    Mr. Levin. Thank you, Mr. Chairman, and thanks to you and 
the ranking member for the terrific witnesses here. I thank 
both of you for coming. Good to see you, Governor Richardson.
    Dr. Cha, I want to start with a question for you about 
human rights. The logic behind choosing Vietnam for this 
summit's setting seems to be that if Kim sees firsthand 
Vietnam's economic success he will want to mirror that success 
in North Korea. Or, put another way, he may see an incentive to 
denuclearize.
    One issue that seems to be missing from this calculus, 
though, is human rights. Human Rights Watch reported earlier 
this month that, and I am quoting, ``Vietnam's one-party state 
severely restricts fundamental civil and political rights and 
has stepped up its harsh crackdown on activists and 
dissidents.''
    Reports indicate that these crackdowns range from arbitrary 
arrests of activists to a lack of press freedom to a grossly 
unfair legal system. Amnesty International has documented more 
than a hundred prisoners of conscience who remain in prison at 
the risk of being tortured or ill-treated.
    So my question to you is, is there a risk that Kim will get 
the message that North Korea can indeed achieve what Vietnam 
has and that just like Vietnam he does not need to respect 
human rights to do it?
    Mr. Cha. Thanks, Congressman. It is a great question.
    I certainly hope that is not the message that he will get. 
I mean, if anything, I think what would be very useful would be 
for the North Korean leader to get a briefing about all the 
laws that now exist passed by this body with regard to not just 
proliferation but human rights abuses that will make it 
impossible for U.S. companies to do any sort of business in 
North Korea.
    That could probably be the most important thing that could 
be told to him that would be incentive for him to try to 
address the human rights abuses in the country.
    Mr. Levin. I really need to study up on that because I have 
noticed a lot of U.S. companies doing a lot of business in 
countries with gross human rights violations over the years. 
Maybe we have done a better job more recently before I came to 
Congress. I think of not--this is not just about Korea or Asia, 
you know--in Latin America and Central America and all over the 
world, in Africa and so forth.
    You mentioned earlier, that the Trump administration has 
failed to appoint a special envoy for human rights in North 
Korea, which is a requirement set forth in the North Korea 
Human Rights Act of 2004. What impact do you think this vacancy 
has on the coordination of our larger North Korea policy?
    Mr. Cha. So as you mentioned, it is mandated by Congress. 
President Bush appointed the first Special Envoy for Human 
Rights, Jay Lefkowitz, and then President Obama appointed Bob 
King.
    I think the most important job--position--role that this 
position plays is a leadership role not just here in Washington 
but at the United Nations and, indeed, around the world with 
regard to getting the international community to focus on the 
human rights abuses in North Korea.
    One very quick example--last December the U.N. Security 
Council did not vote for raising U.N.--North Korean human 
rights in the Security Council agenda, which I think was a big 
defeat because they had done it previously.
    And there is another opportunity this spring, perhaps after 
the summit, but it requires U.S. leadership and if we do not 
have an envoy and if we do not have a U.N. Ambassador it is 
harder to do that.
    Mr. Levin. And do you think that this lack of appointing 
someone sends a signal to the international community about our 
commitment to human rights, more broadly?
    Mr. Cha. Well, I think that there are a number of people 
around town who have drawn a relationship between the absence 
of a human rights envoy and things that are happening in 
China--more crackdowns in China--the Uyghur camps in China.
    So the United States always has been a beacon for human 
rights and human freedom, and we should continue to do so.
    Mr. Levin. Thank you very much. I hope we do continue to do 
so and I fear that we are not being that beacon right now.
    Mr. Chairman, I yield back my time.
    Chairman Sherman. Thank you.
    I recognize the gentlelady from Virginia.
    Ms. Spanberger. Thank you, Mr.----
    Chairman Sherman. Oh, and I will point out we will do a 
second round, but we will adjourn by 12:20 at the very latest.
    Ms. Spanberger. Thank you, Mr. Chairman.
    So, Dr. Cha, you have written extensively and, Governor 
Richardson and Dr. Cha, we have talked extensively today about 
undeclared North Korean missile operating bases that may not be 
included in denuclearization discussions.
    News reports earlier this month described a U.N.--a 
confidential U.N. report that North Korea was engaging in what 
the intelligence community calls denial and deception 
techniques--deliberate efforts to hide their nuclear and 
ballistic weapons to prevent U.S. and others from discovering 
them.
    Dr. Cha, you spoke a bit as well about the idea that any 
agreements have to be verifiable. So my question is, given the 
denial and deception, how can we ensure that inspectors, given 
whatever agreement is made, are gaining access to all of North 
Korea's weapons and facilities and operating bases and how can 
the U.S. negotiate an agreement that North--with North Korea 
that would actually account for any undeclared weaponsites, 
development facilities, or operating bases and ensure that we 
can verify whatever agreements are made?
    Mr. Cha. Well, it requires the president to raise it. I 
mean, this is--I think there are things that North Korea will 
be willing to put on the table in the discussions over the next 
48 hours. But the key condition, I think, for our side to say 
that this is useful or successful would be conditions and 
protocols for verification.
    I mean, once they agree to verification we know how to do 
it. The International Atomic Energy Agency knows how to do it. 
There are people there who have known these North Korean sites 
for years from working on them in the past.
    But it requires the president to raise it and for the North 
Koreans to agree to it.
    Ms. Spanberger. As a former intelligence officer myself--I 
am a former CIA officer--I am particularly concerned about what 
appears to be a growing disconnect between our political and 
intelligence leaders and, in particular, the undermining of 
objective nonpartisan intelligence assessment.
    So following up on that notion of what is verifiable, 
allowing third-party organizations to determine what is in fact 
happening on the ground in North Korea and also listening to 
our intelligence community assessments based--about what is 
happening in North Korea.
    Do you have any thoughts about what we, as Members of 
Congress, can do to ensure that the White House is, in the 
first place, receiving, considering, and then evaluating the 
intelligence information and other information that is 
available and created to help inform U.S. policy engagement 
with North Korea?
    Mr. Cha. It is a great question and, again, given your 
experience in this area, you know a lot more than I do about 
this. I will just say that when we were doing the negotiations 
10 years ago, the intelligence briefing that we had every 
morning was about the most important information that we could 
work from and without it, personally, I felt like we were just 
flying blind.
    This is the hardest intelligence target in the world. I 
think Governor Richardson would agree it is the hardest 
intelligence target in the world. But I think our IC--the 
intelligence community--has done a remarkable job trying to 
gain information not just about their capabilities but their 
intentions.
    Mr. Richardson. I would just add, Congresswoman, what is 
critical is that you and this committee get the best briefings 
from our intelligence people. That is No. 1.
    And I believe that what the NSA and CIA and DIA the--and I 
am concerned about this gap between the White House and our 
intelligence people. And, you know, we spent billions on 
intelligence--human assets, technological assets, and we should 
listen to them.
    But I think you, in your role of oversight, should insist 
on those briefings. What else would I suggest? You know, 
verification inspections are key. The North Koreans will object 
if we are the inspectors, I believe--we, the United States.
    We should insist on that. Perhaps the International Atomic 
Energy Agency--the IAEA, that is involved with the Iran deal in 
the past--well, it still is--that that may be part of the 
inspections regime.
    Ms. Spanberger. Thank you very much to the witnesses.
    And to the chair, I yield back.
    Chairman Sherman. Without objection, we will recognize a 
member of the full committee who is not a member of this 
subcommittee but the former chair of the subcommittee, Mr. 
Chabot.
    Mr. Chabot. Thank you very much.
    I apologize, first of all. I was in Judiciary and unable 
to--but I definitely wanted to stop by. It is a very important 
topic and I will go back and review the questions with my 
colleagues and the answers later on.
    You know, I have to be very honest about this whole 
negotiations and meetings with Kim Jong-Un. He is somebody--he, 
being Kim Jong-Un, is somebody--if he is anything like this 
father and grandfather and, I think in this case, the apple 
does not fall too far from the tree, we have to be extremely 
leery of anything he says and, obviously, the president and the 
people that he has surrounded himself with, the number-one--the 
number-one thing that we have to be focused on is what is in 
best interests of the United States and our security--security 
of the American people.
    Now, diplomacy certainly is better than military 
confrontation and I think we were getting closer and closer to 
that. I think it was a game changer when we believe that they 
had either reached or were very close to having the ability to 
land a nuclear device on American soil.
    I think previous administrations maybe had somewhat of a 
luxury in that we could continue to try to get North Koreans to 
back off their nuclear program and we could negotiate on 
occasion and we saw that when we had--when we would get 
together with them and, in general, we would provide food and 
energy resources and in return they would promise that they 
were going to back off their program or discontinue it or close 
down facilities and we would continue underground full speed 
ahead.
    Maybe not full speed ahead but they would continue the 
programs, maybe not quite as quickly as they would have if they 
had not agreed but they moved forward nonetheless.
    So I am concerned that that behavior will be repeated here. 
That being said, I hope and pray that the president is 
successful and that he really will be able to get some behavior 
changed in Kim Jong-Un. We cannot predict the future but I 
think we all are hoping that that is where we get.
    So I guess my question then, after rambling on there for a 
couple of minutes, is should we be--should we be in a, like 
President Reagan said--he said, obviously, when negotiating 
with the Soviet Union, trust but verify?
    Is this a--should we be distrust but verify, but 
hopefully--I will, for example, as somewhat of a--well, not 
somewhat--quite skeptical, will I--am I likely to be surprised 
and there really is a possibility here that we will have peace 
on the Peninsula and they will denuclearize?
    So I would be happy to open it up to either Bill or the 
other gentleman here.
    Mr. Richardson. Congressman--Mr. Chairman----
    Mr. Chabot. Thank you for your years of service here, too. 
We--a lot of us, especially those that have been around the 
block, it was an--it was an honor to call you a colleague and 
you have done great and done wonderful things for our country 
all over the globe. So thank you for that.
    Mr. Richardson. Well, my answer is I was going to commend 
you for your very hopeful and positive statement. I believe we 
need to continue these negotiations, even if this next summit 
does not appear to bear many results. I am concerned about 
that.
    But this is the most--this is the tensest region in the 
world right now, I believe, with nuclear weapons, with 
missiles, with our allies, with our troops--28,000 in South 
Korea, 30,000 in Japan.
    I think we need to keep talking and dialog, even if we do 
not get the results we want at this summit, needs to continue 
and regardless of what administration is in power.
    Mr. Chabot. Thank you.
    Sir?
    Mr. Cha. I am--yes, I am uncertain, as you are, 
Congressman, of whether we can get to full denuclearization. 
But I do know that any steps we take along those paths cannot 
simply be promises that are made without verification because 
it makes no sense if nothing can be verified.
    And in the end, if we take steps along those lines then we 
are moving in a positive direction.
    Mr. Chabot. Thank you. Thank you very much. I appreciate 
that, and I want to thank the chair and the ranking member for 
allowing me to participate.
    Thank you very much.
    Chairman Sherman. Thank you.
    One thing about sanctions is that if you are dealing with a 
democracy you have a little bit of sanctions. You say depress 
income in the country by 10 percent--that is a big deal.
    It is not a big deal to Kim whether his people are 10 
percent richer or 10 percent poorer, and so the problem with 
partially relaxing sanctions is that you certainly do not have 
regime-threatening sanctions if you go from what I think are 
the inadequate sanctions we have now to something even less.
    My first question is about the train. Kim flew to 
Switzerland when he was a student. He flew to Singapore last 
year. He is on a train through China. Why?
    Mr. Richardson. Well, first, the maintenance record of 
North Korean aircraft is not the best. That is why. Second, you 
know, this has been a tradition in his family----
    Chairman Sherman. Yes. I mean, his father used to go to 
Beijing on an armored train.
    Mr. Richardson. He would go to China, Russia, by train. I 
have seen that train. You should to go see it. It is in a 
museum in Pyongyang. Well, they move it in and out.
    But, last, I think it is mainly a security issue and, 
symbolically, I think Kim Jong-Un was trying to show that he 
went through and he needs China. So he was giving visibility to 
China, and I think going to Vietnam is a signal that North 
Korea wants to do business outside of China with Vietnam.
    Chairman Sherman. We have this image that Kim is in total 
power. Yet, I study dictators and none of them are in total 
power. If he was in total power he could do whatever he thought 
was in the long-term interests of his dynasty.
    What restraints are there? What red lines cannot he cross? 
What people in Pyongyang cannot he cross? What institutions? Or 
is he really that--the thing I have not been able to find in 
history and that is the total dictator?
    Mr. Cha. It is a great question, Congressman. It is a hard 
one to answer, I think. There was a view when he first started 
that because of his inexperience he needed to balance different 
factions in the party, the military, and, of course, the 
family.
    But he has since then gone on, as you know well, such a 
ruthless purging campaign that I think many experts saw his 
trip to--his first trip to China, first time out of the 
country, for as long as he was gone as a sign that he really 
had consolidated power.
    So I think there still is a degree of purging taking place 
but, you know, I think relative to when he started he seems to 
be in about as secure a position as we could have imagined, you 
know, 6 years ago and he does seem to be calling the shots.
    Chairman Sherman. If--and this would be my wildest 
fantasy--he just goes to Vietnam and gives up his nuclear 
program in return for getting the Apple headquarters and maybe 
Amazon as well move to Pyongyang--whatever it took--if he were 
to do that, and none of us expect it, what repercussions would 
he have at home or can he just go back and say, hey, it is time 
to be Silicon Valley?
    Mr. Richardson. He has total control in North Korea. I 
think he is more secure than ever before. His main objective, 
Congressman--Mr. Chairman--is--his main objective is to stay in 
power, more so than detente with the United States or--stay in 
power and I think a source of that is keeping his nuclear 
weapons or some of his nuclear weapons.
    I think what you suggested may be a little wishful thinking 
that he will give it up. But he has said to his people, we have 
to improve our economy and, in a way, he said, you know, the 
only way we can do that perhaps is--they always want to deal 
with the United States.
    They would say to me, we should settle things. The U.S. and 
North Korea--not China, not Russia, not South Korea. We are the 
big guys around here. So I think that is why they are talking.
    Chairman Sherman. I am going to make one more comment and 
that is the fact that Japan and Korea cannot cooperate is 
harmful to the United States' national security and I 
recognize--I brought this home to both Korean and Japanese 
leaders recently--that they have a certain animosity from the 
first half of the 20th century.
    But Poland and Germany cooperate and that helps our 
national security, and if I had more time I would ask for--you 
could respond for the record as to if there is anything we can 
do to get these two countries to cooperate on that--on security 
matters.
    I am going to recognize the ranking member for a limited 
time and then I have to go, and I know the witness has to go as 
well.
    Mr. Yoho. Thank you both, and I think the important thing 
is that we look forward where we are going. We cannot worry 
about what did not work in the past--I mean, we have to learn 
from that--but more forward looking.
    The thing that brought North Korea to the negotiating 
table--correct me if I am wrong--was the unanimous U.N. 
agreement resolution that I think 17 countries placed severe 
sanctions on North Korea.
    With people pretty much adhering to that--i.e., us, Russia, 
China, South Korea--that put enough pressure where they did 
come to the table. Since that point in time, we have seen 
Russia, China, even South Korea with a transfer of--it was 
either coal or petroleum that they said was a mistake--it did 
happen and they went after the people, you know, taking that on 
good faith.
    We have a report, and I do not have the U.N. report--it 
will be out later this year--that we have a report of over 148 
ship-to-ship transfers from January to August. It was oil at 
sea.
    How detrimental is that to our negotiations and moving 
forward if they start normalizing and allow this to happen, and 
then, more importantly, what I would really like to hear from 
you your recommendations to us on this committee as a 
bipartisan group to where we can hold the administration or 
South Korea or China or Russia accountable so that we keep that 
maximum pressure on them until we get a clear blueprint of 
where we are going and then the verification. I wanted to ask 
you real quickly about that. But if you would answer those.
    Mr. Cha. So, first, to the chairman's earlier point about 
trilateral coordination, for the record, it is absolutely 
necessary. We are stronger--the United States is stronger if we 
are lined up with our allies, Japan and Korea, for the record.
    Mr. Yoho. Sure.
    Mr. Cha. On the maximum pressure, diplomacy does not work 
without maximum pressure. The president's efforts at diplomacy 
will not work without maximum pressure and that--and that 
speaks not just--as you said, not just to China but also to 
South Korea.
    And then the third point is there is a way--if we start to 
lift sanctions it will most likely be through South Korea--
South Korea reopening Kaesong Industrial Complex with the 
North.
    I think where human rights matters there is we can require 
the South Koreans to ensure that they can pay the North Korean 
workers directly in Kaesong, which would address the human 
rights issue and address the desire for----
    Mr. Yoho. You know, that came up today in our meeting I 
had. How can you pay them directly? I mean, is Kim Jong-Un 
going to allow that to happen? I mean, that would have to go 
through him and he would have to OK that.
    Mr. Cha. Right. Right. Yes. Yes.
    Mr. Yoho. If that happens, that would be--I mean, that 
would be a huge concession on his part, I would think, to allow 
people to actually earn--keep what they earn and put in the 
labor.
    Mr. Cha. Right. And it would be--for our policy it would be 
a huge success if that could happen.
    Mr. Yoho. That would be a huge success.
    Governor, do you have any thoughts?
    Mr. Richardson. Congressman, my sense is that Russia is not 
observing sanctions. There is massive violations that----
    Mr. Yoho. Oh, terrible.
    Mr. Richardson [continuing]. The site of the border there, 
the port. Victor, what is the name of that port where the--
China has--Russia has a short border.
    Mr. Yoho. Yes.
    Mr. Richardson. So----
    Mr. Yoho. I know where you are talking.
    Mr. Richardson. Russia needs to get tougher and they are 
not doing it. I think these U.N. sanctions were the strongest 
that we have ever had. A lot of it has been working and it is 
essential that China continue the sanctions.
    But the cross-border contraband, the verification----
    Mr. Yoho. Right.
    Mr. Richardson [continuing]. There is key. I always found 
that the most effective sanctions, and I think this was in the 
Bush Administration on North Korea, were banking sanctions on 
their banks and how--I think there is some of that left.
    But the sanctions that have, I think, bitten--that bite the 
most have been the coal, the uranium, the oil sanctions that 
are imposed now by the U.N.
    Mr. Yoho. Right. But, yet, China and Russia are cheating 
and so what we wanted to do is go after the bigger banks, the 
bank of--the construction bank, their agriculture bank--the big 
ones. That would really hurt China.
    And so we are going to followup on our letter to the 
Treasury Department through this administration, and I guess we 
are at a point to demand why are these not taking place. 
Because if we put that pressure on China and Russia they will 
come to the table and I see China as just--they are insecure 
because they fear North Korea becoming more like South Korea.
    But, yet, if they look at the world overall, we are their 
largest trading partner and they are going to benefit hugely 
from this. But they are intimidated by success, I guess, of an 
open society.
    And then you brought up, and I agree with you, what would--
the inspectors. I do not think they need to be U.S. inspectors. 
They just need to be verifiable inspectors that we have the 
faith in that they carry this out. And you are in agreement 
with that, right?
    I am out of time. He has got to get to a meeting. Thank you 
both.
    Chairman Sherman. I want to thank our witnesses and my 
colleagues, and I look forward to exploring this further.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
